TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Employee Training Data Have Not
                    Improved Enough to Determine Training
                            Cost or Effectiveness



                                      September 29, 2006

                              Reference Number: 2006-10-176




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2006


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Employee Training Data Have Not Improved
                              Enough to Determine Training Cost or Effectiveness
                              (Audit #200510032)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 implementation of the Enterprise Learning Management System (ELMS) to determine whether
 the anticipated functionality and benefits expected from the System were achieved. This audit
 was conducted as part of our Fiscal Year 2005 annual audit plan and serves as a follow-up
 review to a prior audit on training conducted in Fiscal Year 2003.1

 Impact on the Taxpayer
 The ELMS is the system of record for employee learning and is used for managing all aspects of
 training activity in the IRS. Incorrect and incomplete training data from the ELMS limit the
 IRS’ efforts to fully evaluate the effectiveness of its training efforts. This makes it more difficult
 to determine if any particular training program(s) should be expanded or reduced and to
 determine which employees may need additional or different training, so they can provide the
 quality service taxpayers expect from the IRS.




 1
  Information on Employee Training Is Not Adequate to Determine Training Cost or Effectiveness (Reference
 Number 2003-10-212, dated September 2003).
                            Employee Training Data Have Not Improved Enough
                               to Determine Training Cost or Effectiveness




Synopsis
The IRS had implemented some of the corrective actions proposed in response to our prior audit
of training information and made the new training system, the ELMS, available to all IRS
employees in January 2005. However, the IRS has declined to build validity checks into the
ELMS to prevent errors, and some of the functionality expected to be delivered in
December 2004 has yet to be implemented for use by the IRS business units, which has delayed
some of the benefits. In addition, the new System still does not enable the IRS to generate
reports of cost data or reports to fully assess IRS training efforts. As of July 2006, the ELMS
had not been fully implemented and was unable to deliver some of the functionality and benefits
that had been expected by December 2004. The delays resulted from a significant increase in
new requirements for the ELMS. The increase in the number of requirements caused the
percentage of customizations2 and configuration changes3 to the standard software to increase
from less than 10 percent to about 40 percent. Furthermore, the IRS did not capture and report
all of the costs associated with implementation of the ELMS. These conditions, in addition to
the discontinuation of the IRS’ previous training data system, leave the IRS with limited ability
to manage and track its training programs.

Recommendations
We recommended the Chief Human Capital Officer (CHCO) add validity checks to the ELMS
and work with the Chief Financial Officer to identify a practical solution that will enable the
Integrated Financial System4 to track IRS training costs. In addition, we recommended the
CHCO provide a revised schedule, based on the maximum benefit provided to the IRS, for the
System functionalities that have not been made available yet and develop a process for tracking
all costs for developing and implementing new systems so the full cost of the project can be
reported.

Response
The CHCO agreed with all of our recommendations. The CHCO will identify ELMS fields that
could be customized or configured to support point-of-entry data validation and will work with
the Chief Financial Officer to identify training costs and determine how those costs would most
appropriately be captured. Furthermore, the CHCO will review and update the ELMS Master
Project Plan to ensure critical IRS business requirements not previously implemented are

2
  Customizing requirements requires the assistance of the vendor and results in additional costs.
3
  Configuration changes to requirements can be performed by the IRS.
4
  The Integrated Financial System is the IRS financial management system that provides detailed financial, cost
accounting, property accounting, and procurement data to authorized users.
                                                                                                                  2
                       Employee Training Data Have Not Improved Enough
                          to Determine Training Cost or Effectiveness



prioritized in coordination with the business units. This action is subject to IRS and Department
of the Treasury Governance approval and resource availability. Lastly, the CHCO will work
with the Chief Financial Officer organization to identify all statute-required project costs for
nonmajor IRS Internal Management Systems. If sufficient funds are available and agreement is
reached to capture the cost in the Integrated Financial System, a development and release
strategy will be in place by December 31, 2007. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                3
                                Employee Training Data Have Not Improved Enough
                                   to Determine Training Cost or Effectiveness




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Most Recommended Corrective Actions Were Implemented;
          However, Validity Checks Were Not Built Into the System, and
          Cost Data to Assess Training Efforts Fully Are Still Incomplete.................Page 4
                    Recommendations 1 and 2: ..............................................Page 6

          Significant Functionality Expected in the Enterprise Learning
          Management System Has Been Delayed, and Development
          Costs Have Been Understated.......................................................................Page 7
                    Recommendations 3 and 4: ..............................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
       Employee Training Data Have Not Improved Enough
          to Determine Training Cost or Effectiveness




                Abbreviations

ACES          Administrative Corporate Education System
CFO           Chief Financial Officer
CHCO          Chief Human Capital Officer
ELMS          Enterprise Learning Management System
FY            Fiscal Year
HCO           Human Capital Office
IFS           Integrated Financial System
IRS           Internal Revenue Service
LMS           Learning Management System
RTM           Requirements Traceability Matrix
                            Employee Training Data Have Not Improved Enough
                               to Determine Training Cost or Effectiveness




                                           Background

Management and tracking of employee training within the Internal Revenue Service (IRS)
involve a significant number of records because the IRS can have as many as 105,000 employees
with training histories and must track an estimated 4.4 million training courses that have been
taken by these employees. Training data are also an important part of the IRS’ Human Capital
Strategy because the data help the IRS ensure employees stay current in their job skills, develop
new skills to move to other business units, and have skills needed for higher grades with more
responsibility. The IRS training management information system has maintained training data
for the IRS, including courses taken by employees, since the 1990s. The IRS Fiscal
Year (FY) 2006 training budget was $140 million. Historical training cost data for prior years
are shown in Figure 1.
                  Figure 1: IRS Training and Training Travel Budgets for
                                     FYs 2003 – 2006

                                     Training        Training Travel             Totals
                  Fiscal Year
                                   (in millions)      (in millions)           (in millions)
                     2003               $42                 $55                   $97

                     2004               $36                 $58                   $94

                     2005               $33                 $64                   $97

                    2006*               $44                 $96                   $140

               Source: IRS Chief Financial Officer (CFO). * Data are through March 2006.

Previously, we reported1 that the Administrative Corporate Education System (ACES) was used
to schedule training, document the training that has been provided, and assist in budget tracking
and projection for all IRS employees. However, the IRS business units did not use the ACES
consistently to assist in budget tracking and projection, the Office of Chief Counsel generally did
not use the ACES, and there were errors in and omissions from the ACES. Additionally, the
Office of Strategic Human Resources2 staff did not have the cost data needed to assess training
efforts. Based on these issues, we recommended all IRS units use the same training tracking
system with built-in validity checks and the IRS use a course numbering system that prevented

1
  Information on Employee Training Is Not Adequate to Determine Training Cost or Effectiveness (Reference
Number 2003-10-212, dated September 2003).
2
  The Office of Strategic Human Resources was replaced by the Office of the Chief Human Capital Officer in
February 2004.


                                                                                                         Page 1
                            Employee Training Data Have Not Improved Enough
                               to Determine Training Cost or Effectiveness



duplications. We also recommended the IRS develop the cost data needed to report on its
training efforts.
At that time, the IRS was in the process of procuring and developing a new Enterprise Learning
Management System (ELMS) that would replace the ACES. The ELMS was intended to address
most of the issues we had raised and to provide learning delivery, instructor-led course tools and
resources, content, performance, competency management,3 and collaborative learning.4 The
IRS retired the ACES in March 2005 because it determined the ELMS had the capability to
perform all of the functions of the ACES.
The ELMS consists of two primary commercial off-the-shelf applications: the Learning
Management System (LMS) and the Learning Content Management System. The LMS is
expected to provide comprehensive learning management capabilities for employees, managers,
and training specialists including tailored instruction, competency management, training
administration, and launching of e-learning content.5 The Learning Content Management
System is expected to provide a structured environment to develop, store, maintain, and
reuse content.
In Calendar Year 2003, the Office of Management and Budget noted that both the IRS and the
Office of Personnel Management were requesting funds for their individual e-learning6 projects.
Consequently, the Office of Management and Budget designated the Office of Personnel
Management as the executive agent responsible for developing a Government-wide e-learning
program as one of several E-Government initiatives under the President’s Management Agenda.
The IRS was required to combine its ELMS development effort with the Government-wide
project and work under the direction of the Office of Personnel Management. Additionally, the
application and data associated with the ELMS would reside on computer systems maintained by
the Office of Personnel Management. Within the IRS, the Learning and Education function in
the Human Capital Office (HCO) is responsible for the management of employee training.
Section 201 of the Federal Workforce Flexibility Act of 20047 requires that each Federal
Government agency, on a regular basis, assess how each of its training plans accomplishes or
effectively promotes the agency’s specific performance plans and strategic goals. Agencies
should modify those training plans or programs to ensure they continually meet and support

3
  Competency management is the process that allows an organization to track an employee’s skills, behavior, and
knowledge and assess their competency gaps, to help improve employee performance as well as meet the business
goals of the organization.
4
  Collaborative learning is the process of learning through the exchange and sharing of information and opinions
among individuals.
5
  This is course or instructional material that can be used and reused that is distributed by a learning management
system or learning content management system.
6
  This is learning that is facilitated and supported using information and communication technologies like the
Internet and email.
7
  Pub. L. No. 108-411 [S.129] (2004).

                                                                                                             Page 2
                       Employee Training Data Have Not Improved Enough
                          to Determine Training Cost or Effectiveness



specific agency-established performance plans and strategic goals. While implementing
procedures for this law have not yet been published by the Office of Personnel Management, we
believe the IRS should start tracking accurate data showing not only the type of training provided
but the direct and related support costs of each course. The IRS should also develop some
systemic method(s) to assess course quality to effectively evaluate its training efforts. The data
taken together should allow the IRS to compute a return on training investment and aid the IRS
in deciding which courses or training methods provide appropriate value in support of the IRS’
overall strategic plan.
This audit was conducted as part of our FY 2005 annual audit plan and serves as a follow-up
review to our prior audit on training conducted in FY 2003. This review was performed in the
Office of the Chief Human Capital Officer (CHCO) at the IRS National Headquarters in
Washington, D.C., and the Dallas, Texas, post-of-duty during the period October 2005 through
July 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                          Employee Training Data Have Not Improved Enough
                             to Determine Training Cost or Effectiveness




                                    Results of Review

Most Recommended Corrective Actions Were Implemented; However,
Validity Checks Were Not Built Into the System, and Cost Data to
Assess Training Efforts Fully Are Still Incomplete
Although the IRS purchased the ELMS and made it available to all IRS employees in January
2005, all of the planned functionality has not yet been fully implemented for use by the business
units and it does not enable the IRS to address some of the recommendations we made in a prior
report. These conditions leave the IRS with a limited ability to track and evaluate its training
efforts. ELMS deficiencies include the lack of built-in validity checks to prevent errors and the
inability to produce cost data or to generate reports to assess IRS training efforts. To produce
cost data and to generate reports to assess IRS training efforts would require a manual collection
and review of the data.

Validity checks were not built into the System
The IRS has completed some of the corrective actions recommended in our prior report. For
example, the ELMS course numbering system eliminated the use of general course numbers,8
and the old ACES course numbering pattern is not a part of the ELMS. Although the ELMS is
able to generate unique course catalog numbers (so duplication of course numbers is prevented),
the IRS did not modify the ELMS to include systemic validity checks as we recommended. The
IRS Learning and Education function staff declined to develop validity tests and advised us the
ELMS required fewer manual entries, which they believed would reduce the risk of input errors.
In addition, they planned to design reports to assist with ensuring the accuracy of data entry.9
With the new ELMS, quarterly “item compliance reports” on key data are to be issued to the
business units by the HCO staff. The business units will have 15 workdays to update and correct
the data. These reports are expected to identify instances in which required data are missing and
should find other errors, such as the input of a travel cost over $5,000 for a 1-day class or an
unreasonable start date (e.g., April 26, 1990). However, the reports developed as of July 2006
address only the accuracy of the information in the training course catalog, not the accuracy of
employee training data.10

8
  Courses are assigned a unique number for tracking purposes and are logged into a catalog.
9
  September 24, 2003, Memorandum for Treasury Inspector General for Tax Administration From the IRS CHCO.
10
   Our review of a random sample of 30 IRS employees with training histories from a population of 293 did not
reveal any errors or obvious omissions in the training histories.


                                                                                                       Page 4
                       Employee Training Data Have Not Improved Enough
                          to Determine Training Cost or Effectiveness



We reviewed a copy of an item compliance report dated June 30, 2006, that identified
1,475 courses with incomplete information. The most common errors involved some type of
missing data. For example, 361 courses (24 percent) did not identify the audience (types of
employees) for whom the training courses are intended, and 813 courses (55 percent) did not
include a contact person from whom employees could get additional information about the
course. Validity tests to ensure data fields are not blank when added to the ELMS can prevent
incomplete information from being entered.
Historically, the HCO has made IRS employees responsible for reviewing their training histories.
If they find any errors, employees have been instructed to prepare and submit an ELMS
Learning/Teaching History (Form 12201) to their business unit training administrators, who will
make corrections to the training histories. However, if an employee does not review and submit
changes to the business unit training administrator, the information will remain inaccurate in the
ELMS. For example, as many as 10,000 employees in one of the IRS business units entered
information about a particular course in the ACES. In some cases employees entered the course
multiple times and in other cases employees entered the course number as training hours (4 hours
was the maximum that should have been claimed), which further compounded the errors. The
cumulative effect of these errors is that as much as 90 percent of the hours associated with that
category of training may be inaccurate and has been carried over to the new ELMS.
While the new System is expected to limit the amount of manual data entry required, relying on a
manual review of individual training records by employees is the least effective internal control.
We believe it will benefit the IRS to have in place a systemic mechanism that detects data errors
before they are posted to the ELMS rather than relying on compliance reports and employee
reviews to identify errors that have been entered into the System.

Cost data to assess training efforts are still incomplete
The HCO staff experienced delays in the following areas: (1) addressing concerns we previously
raised about the IRS’ inability to provide (in a reportable form) cost data needed to assess its
own training efforts fully and (2) developing a methodology to allocate overhead costs. We
reported that the IRS cannot provide detailed cost information down to the course or student
level. This cost information is important because the IRS uses a number of vendor contracts in
its training efforts, and, without detailed information, the IRS cannot validate the contract costs
by tracing costs to the specific training courses or students. These costs include:
   •   Fees paid to private contractors/instructors.
   •   Course books/materials.
   •   Equipment.
   •   Classroom or hotel rentals.
   •   Course development.



                                                                                            Page 5
                            Employee Training Data Have Not Improved Enough
                               to Determine Training Cost or Effectiveness



To address our concerns, the IRS planned to ensure its Integrated Financial System (IFS)11 and
the new LMS collectively would provide appropriate cost data. Corrective actions were to be
completed by October 2005. However, as of May 2006, the HCO staff were still working to
produce the required reports. The HCO staff stated that the detailed cost information needed
must be obtained from systems controlled by the IRS CFO, the most important of which is the
IFS. Although the CFO is working with the HCO to identify which capabilities currently in the
IFS may assist in extracting training cost data, the CFO had indicated as of July 2006 that,
according to the information available at the time, the IFS will not be reprogrammed or
interfaced with the ELMS.

Recommendations
Recommendation 1: The CHCO should ensure that, to the extent possible, validity checks
are built into the ELMS to ensure the data entered into the System are accurate.
         Management’s Response: IRS management agreed with our recommendation. The
         CHCO will identify ELMS fields that could be customized or configured to support
         point-of-entry data validation. A cost/benefit analysis will be conducted and completed
         by April 30, 2007. If justified by the analysis and supported by the business divisions,
         the ELMS Master Plan will be revised to reflect a development and release strategy by
         September 30, 2007. However, this will be subject to coordination with the Department
         of the Treasury LMS Governance Committee if it is determined that potential changes
         would affect the consolidated LMS Architecture.
Recommendation 2: The CHCO should work with the CFO to identify a practical solution
that will enable the IFS to track IRS training costs. The solution should be used IRS-wide and be
accessible to all business units. Training costs should be assigned to the individual course level,
if possible.
         Management’s Response: IRS management agreed with our recommendation. The
         CHCO will work with the CFO and the IFS Program Office to identify additional training
         costs and to determine how those costs would most appropriately be captured. The
         CHCO has submitted a Change Request to the Office of the Associate CIO for Business
         Systems Modernization to initiate this effort. If an agreement can be reached to capture
         the cost in the IFS and funding is available, the CHCO will have a development and
         release strategy in place by December 31, 2007.

11
  The IFS is the IRS’ core accounting system of record; when fully implemented, it is expected to provide budget
preparation, general ledger, accounts payable, accounts receivable, financial reporting, and purchasing functions.




                                                                                                            Page 6
                            Employee Training Data Have Not Improved Enough
                               to Determine Training Cost or Effectiveness




Significant Functionality Expected in the Enterprise Learning
Management System Has Been Delayed, and Development Costs
Have Been Understated
The ELMS is the enterprise e-learning infrastructure12 for the IRS; it is expected to provide
comprehensive learning management capabilities for employees, managers, and training
specialists including tailored instructions, competency management, training administration, and
launching e-learning content. The IRS has reported that the ELMS has achieved functionality in
managing the areas of curriculum and certification, registration, standard reporting, training
event management, training records, and parts of content management. We selected a sample of
32 of the 165 functional requirements scheduled for ELMS Releases 1 and 2 and verified that
31 of the requirements were implemented. The other requirement could not be verified because
it was not fully implemented. As of July 2006, the functionality of competency management and
most of the content management and custom reporting had not yet been realized. In addition, the
IRS has not identified when it will address competency management, and the Learning Content
Management System project is handling most of the content management.
In Calendar Year 2002, the HCO, with vendor support, prepared an LMS Statement of Work that
was submitted to multiple vendors to find a company that could provide an LMS for the IRS.
The IRS business units provided input on the functionality requirements the System should offer.
The business units’ input resulted in the creation of an LMS functional requirements traceability
matrix13 (RTM) that was comprised of 241 requirements. Through a series of releases, the
following six areas originally were expected to be produced by the LMS:
     •   Learning delivery.
     •   Instructor-led course tools and resources.
     •   Content management.
     •   Performance management.
     •   Collaborative learning.
     •   Competency management.
At that time, the IRS expected to implement a commercial off-the-shelf system with little or no
customization. The IRS received a proposal from the eventual winner of the LMS contract
indicating a commercial off-the-shelf product typically could be installed and implemented in
2 months to 5 months, although the contract ultimately required the ELMS to be fully
implemented by December 2004.

12
   The infrastructure addresses the organization’s existing culture, governing principles, processes, and structures
(including technical architecture) that will contribute to e-learning success or failure.
13
   A functional RTM serves as the tracking mechanism to ensure requirements are fully tested and incorporated into
the appropriate implementation phase.


                                                                                                             Page 7
                            Employee Training Data Have Not Improved Enough
                               to Determine Training Cost or Effectiveness



An analysis of the February 2005 RTM indicated the number of requirements had increased from
241 to 466 (93 percent increase)14 between October 2002 and February 2005. The significant
increase in requirements, and the resultant design changes based on the new requirements, were
identified through a series of workshops that involved the ELMS staff, the HCO, the IRS
business units, the ELMS vendor, and other stakeholders. The increase in the number of
requirements caused the percentage of customizations15 and configuration changes16 to the
standard software to increase from less than 10 percent to about 40 percent and added to the time
needed to implement the System. As a result of the increase in vendor customizations and IRS
internal configurations, every time the IRS upgrades the ELMS application, these requirements
will need to be upgraded individually, resulting in additional time and costs.
Additionally, the project team explained that the decision by the Office of Management and
Budget to direct the IRS to combine its project with the Government-wide e-learning initiative
contributed to the project’s overall delay. The requirement to place IRS data in servers outside
of the IRS’ own domain added about 3 months to the project as the team worked to address
security concerns that resulted from this decision.
In July 2006, the IRS reported that three releases of the ELMS had been implemented. However,
we were unable to determine the exact extent of the functionality that had been implemented
because the ELMS staff had not kept the RTM current. The ELMS staff advised us that IRS
resource constraints prevented them from keeping the RTM current. The last known
independent validation of the RTM was conducted in July 2005.
In July 2005, an IRS subcontractor completed a validation of all the ELMS requirements
(324) that were scheduled for implementation in Releases 1 and 2. At that time, Release 3 had
not been implemented. We reviewed the number of functional requirements (165) in Releases 1
and 2 to determine what the IRS expected from the ELMS and whether the functionality had
been achieved. The subcontractor validated 133 of the 165 (81 percent) functional requirements
to ensure they were implemented as planned. The other 32 requirements (19 percent) had not
been validated due to one of the following reasons:
     •   Thirteen requirements were postponed to a future release.
     •   Twelve requirements failed the validation.
     •   Seven requirements were not included in the validation.
The ELMS was expected to increase the number of e-learning hours delivered to 30 percent of
total training in FY 2003 and to 40 percent in FY 2005. Additionally, the System was to reduce
travel costs associated with training. Neither goal has been accomplished. Since FY 2002, the

14
   The requirements are grouped into six categories, and functional requirements make up the majority.
15
   Customizing requirements requires the assistance of the vendor and results in additional costs.
16
   Configuration changes to requirements can be performed by the IRS.

                                                                                                         Page 8
                         Employee Training Data Have Not Improved Enough
                            to Determine Training Cost or Effectiveness



number of e-learning hours delivered has increased by only about 3 percent from FY 2002
through FY 2004 (the last full year of data available), and travel costs have increased. Figure 2
shows the number of training hours counted as e-learning and the total number of all training
hours incurred over the 3½ years from FY 2002 to the middle of FY 2005.
   Figure 2: Total Training Hours Compared to e-Learning Hours Delivered for
                             FY 2002 – February 2005

                                                                                     FY 2005
                                            FY 2002       FY 2003      FY 2004
                                                                                   (as of 2/05)
        Total Training Hours                7,286,439    6,938,486    6,406,366    1,887,728

        e-Learning Total Hours              1,271,033    1,519,926    1,262,374     371,025

        Percentage of e-Learning to Total     17%           22%         20%           20%

     Source: The ACES.

Actual travel expenses associated with training have increased by about $7 million over the last
4 years and are budgeted at $96 million in FY 2006. Figure 3 shows the amount of training
travel expenses incurred over the last 4 years.
           Figure 3: Actual Training Travel Expenses for FYs 2002 – 2005

                         FY 2002       FY 2003          FY 2004       FY 2005

                      $54,618,000     $48,718,000   $57,902,000      $61,936,000

                   Source: IRS CFO.

An important anticipated benefit of the ELMS is its ability to provide the HCO and business unit
management with training data through the design, development, and implementation of custom
reporting. Many of the custom reports included in the System’s development (such as a report
showing the numbers and percentage of training hours delivered and their methods of delivery)
have not been implemented. The IRS expects it will need to purchase a third-party report writing
application and will then need to train some number of IRS employees in the use of the
application to generate custom reports as needed.
Another significant anticipated benefit of the ELMS that has not been implemented is the ability
for the training staff to better evaluate employee competencies. Competency is determined by
comparing the measurable skills, abilities, and personality traits that identify successful
employees against defined roles within an organization. Defining competencies and then
measuring an employee against them aids in determining potential gaps in an individual’s skills
and possible gaps in IRS training plans. Obtaining the tools needed to assess competencies and
skills gaps is a significant goal of the HCO, as noted in the IRS Human Capital Strategic Plan.

                                                                                                  Page 9
                             Employee Training Data Have Not Improved Enough
                                to Determine Training Cost or Effectiveness



The creation and delivery of online content17 was to be addressed in the new LMS. However,
some of the requirements under content management have been included in the LMS, while
others associated with content authoring are expected to be part of a second system called the
Learning Content Management System that is expected to be fully integrated with the ELMS.
Widespread use of the System by subject-matter experts to create online content has not been
achieved because the IRS is still training employees to use the content authoring features.

Development costs have been understated
The overall cost to implement the ELMS was estimated at about $20 million through 2009 and
included budgetary resource expenditures associated with development and implementation of
the System. Although these budgeted costs were identified in the final ELMS cost/analysis
Business Case,18 the actual resource expenditures incurred on the ELMS project have not been
tracked or recorded by the HCO. As many as 95 employees worked on various ELMS
implementation subteams from January 2004 to January 2005. Some of the team members
worked part time on the ELMS project and had other duties outside the team. However, the
amount of time these employees worked on the ELMS was not formally tracked or recorded.
Total salaries for 9 full-time team members amounted to over $726,000 during the development
period, and none of their salaries or travel costs have been recorded as a cost of the ELMS
project. The ELMS Project Offices estimated that the 86 part-time team members spent about
one-third of their time that year working on the project. We estimate one-third of their salary
costs would total $ 2.4 million. Furthermore, after January 2005, 15 employees worked part time
on the ELMS implementation. The Enterprise Life Cycle19 document states the project manager
is responsible for managing performance, expenditures, schedule, and communications of the
project. In addition, the project manager must collect and update performance statistics for
technical solutions, costs, resources, and schedule activities.
Because all the costs were not tracked, it is difficult for the IRS to determine the total
development cost and to know whether it is complying with Section 5122 of the
Clinger-Cohen Act.20 This Act requires that the project “. . . provide the means for senior
management personnel of the executive agency to obtain timely information regarding the
progress of an investment in an information system, including a system of milestones for

17
   Online content refers to commercial off-the-shelf products, custom development, testing, integration, and
maintenance services.
18
   Business cases are also known as Exhibit 300, Capital Asset Plan and Business Case Summary.
19
   The Enterprise Life Cycle defines the processes, products, techniques, roles, responsibilities, policies, procedures,
and standards associated with planning, executing, and managing business change.
20
   Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).


                                                                                                               Page 10
                        Employee Training Data Have Not Improved Enough
                           to Determine Training Cost or Effectiveness



measuring progress, on an independently verifiable basis, in terms of cost, capability of the
system to meet specified requirements, timeliness, and quality.”

Recommendations
Recommendation 3: The CHCO should propose a revised schedule for implementation of
ELMS System functionalities that were not made available to IRS business units by July 2006.
Per the Exhibit 300 cost justification submitted to the Office of Management and Budget, all
functionality was to be implemented by December 2004. The revised schedule should be
prioritized based on the maximum benefit provided to the IRS and in coordination with business
units’ requirements.
       Management’s Response: IRS management agreed with our recommendation. The
       CHCO will review and update the ELMS Master Project Plan to ensure critical IRS
       business requirements not previously implemented are prioritized in coordination with
       the business units and will be scheduled for implementation in future ELMS Releases,
       following completion of the Learning and Education Redesign technology upgrades and
       the Department of the Treasury LMS Consolidation. Reprioritized requirements will be
       subjected to IRS and Department of the Treasury Governance approval and will be
       incorporated in future releases based on resource availability. After approval is granted,
       the CHCO will prepare a reprioritized Master Plan by December 31, 2007, reflecting a
       development and release strategy.
Recommendation 4: The CHCO should develop a process for tracking all costs for
developing and implementing new systems, including salary and travel costs incurred by IRS
employees as well as any contractor costs and hardware/software costs, so the full cost of the
project is apparent to IRS executives and other stakeholders.
       Management’s Response: IRS management agreed with our recommendation. The
       CHCO will work with the CFO organization to identify all statute-required project costs
       for nonmajor IRS Internal Management Systems. If sufficient funds are available and
       agreement is reached to capture the cost in the IFS, a development and release strategy
       will be in place by December 31, 2007.




                                                                                           Page 11
                            Employee Training Data Have Not Improved Enough
                               to Determine Training Cost or Effectiveness




                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to evaluate the effectiveness of the ELMS1
implementation by assessing whether the anticipated functionality and benefits were achieved.
In addition, we followed up on the IRS corrective actions taken in response to recommendations
made in a prior audit report.2 To accomplish this objective, we:
I.      Determined whether training data and costs were reflected in the ELMS accurately.
        A. Determined that the IRS has officially retired its training system (the ACES)3 and
           replaced it with the ELMS, as planned. From the ACES, we selected a random
           sample of 30 IRS employees with training histories from a population of 293 with
           training histories (these are the same employees reviewed in the prior training audit
           with training histories established on the ACES as of September 18, 2002). We used
           a random sample to ensure each employee had an equal chance of being selected.
        B. Determined how the IRS keeps track of training costs to ensure they are all accounted
           for.
        C. Determined whether the data provided by the ELMS allow the IRS to more accurately
           report on training, its effectiveness, and its costs.
II.     Identified the IRS’ original expectations for the ELMS and compared them to the
        System’s functionality as of July 2006.
        A. Determined the basis for the IRS developing the ELMS.
        B. Determined if any System functionality has not been implemented and assessed the
           impact on the IRS’ ability to produce complete, accurate, and timely training data.
           We selected a judgmental sample of 32 LMS4 functional requirements from a
           population of 165 functional requirements expected to have been implemented in
           ELMS Releases 1 and 2 to determine their functionality. We used judgmental

1
  The ELMS was intended to provide learning delivery, instructor-led course tools and resources, content,
performance, competency management, and collaborative learning.
2
  Information on Employee Training Is Not Adequate to Determine Training Cost or Effectiveness (Reference
Number 2003-10-212, dated September 2003).
3
  The ACES was used to schedule training, document the training that has been provided, and assist in budget
tracking and projection for all IRS employees.
4
  The LMS is expected to provide comprehensive learning management capabilities for employees, managers, and
training specialists including tailored instruction, competency management, training administration, and launching
of e-learning content.
                                                                                                           Page 12
                      Employee Training Data Have Not Improved Enough
                         to Determine Training Cost or Effectiveness



          sampling because of limited resources and because we were drawing conclusions
          only about the sampled items.
III.   Determined whether the ELMS project is being developed on schedule and on budget.
       A. Determined whether the ELMS development and rollout are on schedule.
       B. Determined whether IRS management is reporting effectively the cost of
          implementing the ELMS project.
       C. Determined whether management decisions have affected the implementation plan.
IV.    Determined whether the benefits anticipated when the project was approved have been
       realized.




                                                                                     Page 13
                      Employee Training Data Have Not Improved Enough
                         to Determine Training Cost or Effectiveness




                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Kevin P. Riley, Audit Manager
Ken Henderson, Lead Auditor
Charles Ekunwe, Senior Auditor
Michael Della Ripa, Auditor
Stephen E. Holmes, Auditor
James Allen, Information Technology Specialist




                                                                                    Page 14
                     Employee Training Data Have Not Improved Enough
                        to Determine Training Cost or Effectiveness




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Financial Officer OS:CFO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief Human Capital Officer OS:HC




                                                                       Page 15
       Employee Training Data Have Not Improved Enough
          to Determine Training Cost or Effectiveness




                                                Appendix IV


Management’s Response to the Draft Report




                                                         Page 16
Employee Training Data Have Not Improved Enough
   to Determine Training Cost or Effectiveness




                                                  Page 17
Employee Training Data Have Not Improved Enough
   to Determine Training Cost or Effectiveness




                                                  Page 18
